Audit Report




OIG-10-016
Management Letter for Fiscal Year 2009 Audit of the Office of
D.C. Pensions’ Financial Statements

December 7, 2009




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                             December 7, 2009


            MEMORANDUM FOR NANCY OSTROWSKI, DIRECTOR
                           OFFICE OF THE D.C. PENSIONS

            FROM:                 Michael Fitzgerald
                                  Director, Financial Audits

            SUBJECT:              Management Letter for Fiscal Year 2009 Audit of the
                                  Office of D.C. Pensions’ Financial Statements


            I am pleased to transmit the attached management letter in connection with the
            audit of the Office of D.C. Pensions’ (ODCP) Fiscal Year 2009 financial statements.
            Under a contract monitored by the Office of Inspector General, KPMG LLP, an
            independent certified public accounting firm, performed an audit of the financial
            statements of ODCP as of September 30, 2009, and for the year then ended. The
            contract required that the audit be performed in accordance with generally
            accepted government auditing standards; applicable provisions of Office of
            Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements, as amended; and the GAO/PCIE Financial Audit Manual.

            As part of its audit, KPMG LLP issued and is responsible for the accompanying
            management letter that discusses other matters involving internal control over
            financial reporting and its operations that were identified during the audit but were
            not required to be included in the auditors’ reports.

            In connection with the contract, we reviewed KPMG LLP’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG LLP did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789 or a member
            of your staff may contact Shiela Michel, Manager, Financial Audits, at
            (202) 927-5407.

            Attachment
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




November 13, 2009


Inspector General, U.S. Department of the Treasury, and
Director, Office of D.C. Pensions:

We have audited the consolidated financial statements of the U.S. Department of the Treasury’s Office of
D.C. Pensions (the ODCP), for the year ended September 30, 2009, and have issued our report thereon
dated November 13, 2009. In planning and performing our audit of the consolidated financial statements of
the ODCP, in accordance with auditing standards generally accepted in the United States of America; the
standards applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-
04, Audit Requirements for Federal Financial Statements, as amended, we considered the ODCP’s internal
control over financial reporting (internal control) as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the consolidated financial statements but not for the purpose of
expressing an opinion on the effectiveness of the ODCP’s internal control. Accordingly, we do not express
an opinion on the effectiveness of the ODCP’s internal control.
During our audit we noted certain matters involving internal control and other operational matters that are
presented for your consideration. These findings and recommendations, all of which have been discussed
with the appropriate members of management, are intended to improve internal control or result in other
operating efficiencies and are summarized in Appendix A to this report.
Our audit procedures are designed primarily to enable us to form an opinion on the consolidated financial
statements, and therefore may not bring to light all deficiencies in policies or procedures that may exist.
We aim, however, to use our knowledge of the ODCP’s organization gained during our work to make
comments and suggestions that we hope will be useful to you. The ODCP’s responses to our findings and
recommendations are included in Exhibit A. We did not audit the ODCP’s responses and, accordingly, we
express no opinion on them.
This communication is intended solely for the information and use of the ODCP’s management, the U.S.
Department of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability
Office, and the U.S. Congress, and is not intended to be and should not be used by anyone other than these
specified parties.
Very truly yours,




                                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                member firm of KPMG International, a Swiss cooperative.
                                                                                Appendix A




                       FINDINGS AND RECOMMENDATIONS


2009-01        Continue to Improve Controls Over New Annuitant Payment Processing

During our testing of a sample of 69 new annuitant benefit payments processed by the
District of Columbia Retirement Board (DCRB) for the Police, Firefighters, and Teachers
retirement plans, we noted three instances where the DCRB 2nd review failed to identify
errors made by the DCRB analysts processing the claims, resulting in the following
exceptions:

      1) For one sample item tested, the DCRB analyst incorrectly excluded the new
      annuitant’s health benefit deduction when calculating the beneficiary payment,
      which resulted in a one-time overpayment to the beneficiary in the amount of
      $134.66.

      2) For one sample item tested, the DCRB analyst mis-applied the cost of living
      adjustment (COLA) resulting in a survivor of an annuitant being over-paid a total
      of $4,076.85, which affected 7 months of benefit payments.

      3) For one sample item tested, the DCRB analyst processing the new annuitant
      incorrectly prorated the first payment resulting in a one-time overpayment in the
      amount of $1,072.81.

The Memorandum of Understanding (MOU) between ODCP and DCRB – Considering
Interim Benefit Administration of Retirement Plan dated December 31, 2008, specifies
the obligations of the DCRB, MOU section 3.1.3(d) requires DCRB to enforce all terms
of the District Retirement Programs and the Replacement Plan to ensure accurate
payments of Federal Benefit Payments and District Payments.

OMB Circular No. A-123, Management’s Responsibility for Internal Control, in the
introduction section notes the requirements of the Federal Managers’ Financial Integrity
Act (FMFIA) of 1982: “The agency head must establish controls that reasonably ensure
that …iii. Revenues and expenditures applicable to agency operations are properly
recorded and accounted for to permit the preparation of accounts and reliable financial
and statistical reports and to maintain accountability over the assets.”

In addition, U.S. Government Accountability Office’s (GAO) Standards for Internal
Control in the Federal Government (GAO/AIMD-00-21.3.1) (the Standards) states:
“Control activities occur at all levels and functions of the entity. They include a wide
range of diverse activities such as approvals, authorizations, verifications, reconciliations,
performance reviews, maintenance of security, and the creation and maintenance of
related records which provide evidence of execution of these activities as well as



                                            A-1
                                                                Appendix A, continued




appropriate documentation. Control activities may be applied in a computerized
information system environment or through manual processes.”

The Standards also provides examples of control activities, which include “reviews by
management at the functional or activity level.”

The three exceptions discussed above were a result of the DCRB analyst inputting
incorrect information in the benefit payment calculation and the 2nd reviewer not
identifying the input error.

If incorrect information is input into System to Administer Retirement (STAR) and not
discovered by the 2nd reviewer, new annuitants may not be paid the proper amounts and
benefit payments and the related benefit expense could be misstated in the ODCP
financial statements. In addition, ODCP’s actuarial calculations are based off the
demographic information in STAR. If the demographic information in STAR is
inaccurate then the actuarial calculations based upon the demographic information in
STAR could be inaccurate.

Recommendations

We recommend that the ODCP: (1) continue training the DCRB 2nd reviewers so they
fully understand their role and responsibilities of performing the 2nd review of the
benefit payment calculation; and (2) create a beneficiary checklist that will help the
reviewer focus his attention on areas that have a higher degree of miscalculating the
benefit payment.

Management Response

Management concurs with the findings and recommendations. As a result of these
findings, DCRB quickly corrected the benefit payments for the three exceptions noted
above and communicated the changes in the payment amounts to the retirement benefits
recipients. ODCP plans to increase focus on benefit processing for beneficiaries in
FY2010 by providing additional training to analysts and second level reviewers and
creating a checklist to assist analysts in processing cases for beneficiaries.

2009-2        Improve Controls Over the Processing of Back Payments During the
              Annuitant Reinstatement Process

During our testing of 15 off cycle benefit payments processed by the DCRB for the
Police, Firefighters, and Teachers retirement plans, we noted the following breakdown in
internal controls over the processing of back payments during the annuitant reinstatement
process:




                                          A-2
                                                                    Appendix A, continued




DCRB initiated a transaction to terminate payments in STAR effective March 1, 2006,
for an annuitant who was not cashing their annuitant payments. Shortly before, the ODCP
had placed a stop payment on 14 monthly annuitant checks issued to this annuitant that
had not been cashed relating to the months of August 2005 through March 2006, and
May through October 2004. After DCRB obtained the Verification of Receipt of
Annuitant Payment letter from the annuitant on January 27, 2009, an initial back payment
was issued to the annuitant related to the period from March 1, 2006 through March 2,
2009. However, no payment was made to the annuitant for the 14 stale-dated checks.
After we brought this issue to the attention of the ODCP and DCRB, an off-cycle
payment in the amount of $47,032 was processed by DCRB for this annuitant on August
25, 2009. Upon further investigation it was discovered that the off cycle payment of
$47,032 incorrectly included 2 months of re-issued checks resulting in an overpayment to
the annuitant of $5,774. DCRB is in the process of issuing an Overpayment of Annuity
Letter to the annuitant to reclaim the overpaid amount.

The Memorandum of Understanding (MOU) between ODCP and DCRB – Considering
Interim Benefit Administration of Retirement Plan dated December 31, 2008, specifies
the obligations of the DC Retirement Board, MOU section 3.1.3(d) requires DCRB to
enforce all terms of the District Retirement Programs and the Replacement Plan to ensure
accurate payments of Federal Benefit Payments and District Payments.

OMB Circular No. A-123, Management’s Responsibility for Internal Control, in the
introduction section notes the requirements of the Federal Managers’ Financial Integrity
Act (FMFIA) of 1982: “The agency head must establish controls that reasonably ensure
that …iii. Revenues and expenditures applicable to agency operations are properly
recorded and accounted for to permit the preparation of accounts and reliable financial
and statistical reports and to maintain accountability over the assets.”

In addition, U.S. Government Accountability Office’s (GAO) Standards for Internal
Control in the Federal Government (GAO/AIMD-00-21.3.1) (the Standards) states:
“Control activities occur at all levels and functions of the entity. They include a wide
range of diverse activities such as approvals, authorizations, verifications, reconciliations,
performance reviews, maintenance of security, and the creation and maintenance of
related records which provide evidence of execution of these activities as well as
appropriate documentation. Control activities may be applied in a computerized
information system environment or through manual processes.”

The Standards also provides examples of control activities, which include “reviews by
management at the functional or activity level.”

These errors were a result of ineffective review over the processing of back payments
during the annuitant reinstatement process.




                                            A-3
                                                                     Appendix A, continued




If the payment related to the reinstatement of annuitants is not done timely and if
payments for the replacement of stale dated checks is incorrect, then benefit payments
and the related benefit expense could be misstated, which can result in misstatements in
ODCP’s financial statements and annuitants not receiving the correct benefit payment
amounts.

Recommendation
We recommend that the ODCP improve internal controls over the processing of back
payments during the annuitant reinstatement process to ensure that the correct back
payments are issued to annuitants. Specifically; 1) staff should be trained on the
processing and review of reinstated annuitants, and 2) ODCP’s monthly quality review
should include the off-cycle payment population.

Management Response

Management concurs with the finding and recommendations. As a result of this finding,
Bureau of Public Debt (BPD) quickly communicated with the annuitant to notify her of
the overpayment and took initial steps to collect the overpayment. ODCP also worked
with DCRB and BPD to review and update procedures for annuitant reinstatements to
ensure annuitants receive the correct payments timely. ODCP plans to expand its quality
review program to include off-cycle payments to ensure these payments are being
processed correctly.

2009-3         Improve Controls Over Developer Access to the STAR Production
               Server

During our review of STAR access rights, we identified one developer who had access to
the Windows 2003 production web server that supports the STAR application. We were
able to review information that showed that the account was disabled, but enabled on
June 30, 2009 and disabled/removed on August 13, 2009.

Office of Management and Budget (OMB) Circular A-130, Appendix III, Security of
Federal Automated Information Resources, states that, “Least privilege is the practice of
restricting a user's access (to data files, to processing capability, or to peripherals) or type
of access (read, write, execute, delete) to the minimum necessary to perform his or her
job.”

OMB Circular A-130, Appendix III also states, “Incorporate controls such as separation
of duties, least privilege, and individual accountability into the application and
application rules as appropriate.”

Based on discussions with management, while troubleshooting an access issue with a
STAR subsystem related to but not directly connected with STAR, a BPD Office of IT
System Administrator inadvertently enabled a developer's account on the wrong web


                                             A-4
                                                                  Appendix A, continued




server. When this access was discovered in August, this account (along with other
developer accounts that had not been enabled) was deleted on August 13, 2009.

Providing developers with access to the production environment results in a lack of
segregation of duties which increases the risk for program changes to be introduced into
the production environment without proper authorization.

Recommendation
KPMG recommends ODCP delete disabled users or require the disabled user to go
through the appropriate levels of approval before the user account is re-activated.

Management Response

Management concurs with the finding and recommendation. The access noted above was
accidentally granted and BPD quickly removed the identified developer’s access soon
after the issue was identified. At the same time the developer’s access was removed,
BPD also removed all disabled developers’ accounts from the production web server to
eliminate the possibility of accidentally enabling the developers’ accounts in the future.
As a result, if a developer has a need to access the production web server, the developer
is required to follow established access procedures before access to the server is granted.




                                           A-5
